                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: *-031100617                                                               Page 1 of 1



          As part of a review of NSF conference, workshop, and symposia grants, we collected a stratified
          random sampling of relevant FYOl NSF awards and wrote to each institution requesting
          documentition of expenditures under the award. In this case, documents provided by the
          University for its 3-year conference awardlshowed that the University used participant support
          funds to pay an honorarium to the major speaker at the first conference and to pay for employees'
          travel as p h of the 2ndconference. According to NSF's Grant Proposal Manual @SF-95-50),
          participant support funds are not to be used for conference speakers or employees without prior
          written ap$roval by the program manager.

          Our review showed that the University received funds to support three conferences. The lSt-and
          3rd-years'conferences were held at the University, and the 2nd-yearheld at another institution
          under a subcontract from the University. The award, approved by the NSF program officer,
          clearly indicated that award funds would be used to support the Main Speakers in each of the 3
          years. Given that these funds were clearly presented in the budget section, the program officer,
          by approving the budget and awarding the proposal, gave h s approval for the use of these funds
          in this case.

          Our review showed that several employees at the University were supported in their trips to the
          2ndconference at the other institution. The funds used were subcontracted funds, including
          indirect costs. None of the money used to support the employees' travel were taken from
          participant support funds. Consequently, the use of these funds to support employees from the
          University out of the subcontract was allowable.

          This case is closed and no further action will be taken.




          m.

 NSF OIG Form 2 (11/02)   '
